                                                              USNRC

                       OIG Information Digest
                         NUREG/BR-0304 VOLUME 5, NUMBER 1                                         FEBRUARY 2008



                          Time and Attendance Abuse
                          Leave abuse and habitual tardiness are two of the greatest disciplinary problems man-
                          agers have to deal with in today’s Federal workplace. All too often managers do not
                          work to identify and correct employees who abuse leave or are habitually tardy. By ig-
                          noring time and attendance problems and allowing them to fester and grow, managers
Special points of
                          may inadvertently hurt the morale of good employees who follow the rules.
interest:                 The Office of the Inspector General (OIG) has the responsibility to investigate instances
                          of Time and Attendance (T&A) abuse at the Nuclear Regulatory Commission (NRC).
• OIG Investigations      Some of the cases investigated involved individuals claiming to work overtime when
                          they had not; not appropriately claiming sick or annual leave on time cards; or altering
• Other agency investiga-
                          actual time card entries. Disciplinary action imposed by management ranged from sus-
  tions on T&A Abuse      pensions of 5 days up to a month without pay for abusing the T&A system. The amount
                          of disciplinary action varied, depending upon the severity of the case. In some cases,
                          employees had to reimburse the NRC for the extra pay they collected. It should also be
                          noted that disciplinary action can include termination from Federal service.
                          Don’t make these mistakes. Your reputation and job are at stake. The bottom line is
                          that it is every employee’s responsibility to arrive at work on time and report work and
                          leave hours correctly. The following articles are examples of the type of T&A abuse that
                          can happen in this agency and others.
                          One of the most egregious cases occurred here at the NRC over 10 years ago, but still
                          serves as a reminder the abuses which can occur within this program.

                              OIG Case                    The scheme was identified      overtime hours for a specific
                                                          when the former office di-     T&A unit. The caller said, “I
                              In 1994, the Office of the                                 see you didn’t do anything
Inside this issue:                                        rector found a folder con-
                              Inspector General (OIG)                                    about the T&A problem I
                                                          taining Time and Atten-
                              learned that two Nuclear                                      reported to you last
                                                          dance (T&A)
Time and Attendance     1-3
                              Regulatory Commission                                         month.”
                                                          records on his
Abuse                         (NRC) employees had
                                                          desk. He                           After that call, the office
                              embezzled $135,000
Other OIG Cases          3
                                                          thought the                        director promptly had
                              from the government
                                                          folder was mis-                    his secretary retrieve
                              during a five year period.
DOT Investigation        3                                placed during a                    the folder in question
                              These two employees
                                                          recent office                      and started reviewing
                              claimed fraudulent over-
                                                          move so he asked his sec-      the file for overtime claimed
Department of Educa-    3-4   time by altering their time
tion Investigation
                                                          retary to file the material.   by employees in that unit.
                              cards, NRC Form 145
                              “Request for Irregular or Later that month, he re-         After reviewing the contents
Employee and Manage-     5
ment Responsibilities         Occasional Overtime or ceived an anonymous                 of the folder, the office di-
                              Compensatory Time,”         phone call stating that he     rector contacted the Office
                              and forging the signa-      should look into the           of the Inspector General.
                              tures of their supervisors.
PAGE 2


Time and Attendance Abuse                      (con’t. from page 1)


The OIG reviewed the con-         any overtime hours on her            record back to Payroll. OIG
tents of the folder and discov-   timecard. The T&A clerk told         learned that the supervisors of
ered that the time cards of two   her she was only trying to help      these employees never veri-
employees, one of which was       her by increasing her pay-           fied that time cards accurately
a T&A clerk, were possibly        check. She told the T&A clerk        reflected the work hours of
altered in pay periods in FY93.   that she did not want overtime       their employees. Both em-
The OIG retrieved the T&A         hours added to her timecard          ployees admitted ultimately to
records from the Payroll          because she did not want to          OIG that they falsified their
Branch and determined that        jeopardize her job. The T&A          time cards.
the employ-                       clerk assured her that she had
                                                                       Both employees were termi-
ees, had in                          been doing it for some time
                                                                       nated from the NRC and
fact, claimed                        and no one would find out.
                                                                       agreed to waive indictment
fraudulent                           The T&A clerk continued to        and plead guilty to a single
overtime and                         add fraudulent overtime           count charging them with Con-
forged the sig-                      hours to each time card for       version of Government Funds
nature of the                        a period of five years. In        in violation of 18 U.S.C. Sec-
supervisor having overtime        one pay period                        tion 641.
approval.                         at least 71 hours
                                                                          One of the employees was
Each of the employees were        of fraudulent
                                                                         sentenced to four months
interviewed by OIG Special        overtime hours
                                                                         home detention, five years
Agents and one of the employ-     were added.
                                                                         probation, and ordered by the
ees, the T&A clerk, confessed     Each pay period                        court to pay $200 per month
that she was the one who or-      the T&A clerk would enter the        for the duration of the proba-
chestrated the entire scheme      time correctly on the time           tion period. She was also or-
and was willing to do what she    cards and then have the su-          dered to turn over her NRC
could to rectify the situation.   pervisor sign the timecard.          retirement fund in the amount
She said that at first she was    After the supervisor signed the      of $21,384.33.
only adding overtime hours to     card, the T&A clerk would add
                                                                       The T&A clerk was sentenced
her own time card because of      overtime hours and then forge
                                                                       to 12 months home detention,
financial problems and being      the signature of the approving
                                                                       five years probation, and or-
the sole provider for her fam-    overtime official or alter the
                                                                       dered by the court to pay $400
ily. About a year later, she      records to increase the
                                                                       per month for the duration of
found out that a co-worker was    amount of overtime earned.
                                                                       the probation period. She was
also the sole provider for her    She would then send the time
                                                                       also ordered to turn over her
family and was experiencing       cards to the Payroll branch.
                                                                       NRC retirement
financial problems.               Each pay period the Payroll          fund in the
The T&A clerk took it upon        Branch would send a verifica-        amount of
herself to add overtime hours     tion record addressed to the         $14,847.58.
to the timecard of the other      certifying official to verify that
employee.                         the time cards accurately re-
                                  flected the verification record.
After receiving her paycheck,     In this particular branch, the
the second employee con-          T&A clerk was the individual
fronted the T&A clerk about       responsible for verification of
the discrepancy in her time       the records. She would verify
card. She informed the T&A        the records knowing they were
clerk that there should not be    false and return the verification
    NUREG/BR-0304 VOLUME 5, NUMBER 1                                                                PAGE 3


Other OIG Time and Attendance Abuse Cases
From time to time, OIG will have T&A                        Based on the NRC employees hourly pay
cases to investigate. Most allegations of                   rate the total dollar amount of fraudulent
T&A abuse are forwarded to the proper                       overtime hours claimed by the employee was
manager for their action. The following                     $1,008. The employee was
are two examples of the cases OIG has                       given a 7-day suspension
investigated.                                               without pay.
OIG determined that between October 2005 and Au-
gust 2006, an NRC employee claimed on his NRC           Another NRC employee was
Summary Approval Reports (SAR) approximately 19         issued a 30-day suspension be-
hours of overtime that he did not work. The NRC         cause he altered an e-mail and electronic calen-
employee claimed working these hours on eight oc-       dar and lied about his whereabouts to cover the
casions, all during weekends.                           fact that he had left work without approved leave.


Department of Transportation Investigation                               (www.oig.dot.gov/item.jsp?id=1827)

Former National Highway Traffic Safety Admini-           assistant fraudulently claimed that she and an-
stration (NHTSA) Employee Pleads Guilty to               other NHTSA staff assistant worked over 1,000
Embezzling Nearly $24,000 from the Govern-               hours of overtime. In fact, the overtime was nei-
ment through False Claims for Overtime Pay               ther authorized nor performed. One staff assis-
A former staff assistant at the (NHTSA) pled guilty      tant received approximately $24,000 and the
in U. S. District Court in Washington, DC to a felony    other one more than $12,000 as a result of the
charge of embezzlement. The investigation found          fraudulent overtime claims. They both pled
that, between December 2001 and March 2004, the          guilty to the same charge and resigned from
                                                         NHTSA in October 2004.

Telephone Technician Convicted in $1 Million Fraud Scheme Against the Department of
Education, Washington, D.C. (www.ed.gov/about/offices/list/oig/invtreports/dc022002.html)

A telephone technician employed by Bell                       assigned full-time to the Department of Edu-
Atlantic Federal Systems (now Verizon),                       cation to install telephone systems. He
was a participant in a wide-ranging con-                      worked alongside another Bell Atlantic Tech-
spiracy to defraud the Department of                          nician in addition to a technician with Lucent
Education was found guilty by a jury in                       Technologies. Any hours, including over-
United States District Court of the three                     time and holiday hours, that these techni-
charges against him: one count of con-                        cians claimed to work for the Department of
spiracy to defraud the United States with                     Education were billed to and paid for by the
respect to false claims and two counts of                     Department of Education.
theft of government property. His convictions
arose from his participation in a scheme through
which the Department of Education was de-               Sometime in the 1990's and continuing up until De-
frauded of more than $1,000,000. Each of the            cember 9, 1999, all the technicians began to claim
counts of conviction carries a maximum of ten           that they were working far more overtime hours
years imprisonment and a fine up to $250,000.           than they had actually worked. Two of the techni-
                                                        cians testified that they met each morning to dis-
                                                        cuss how much time they should put on their time
According to the Government's evidence, the             sheets for the prior day's work.
technician employed by Bell Atlantic, was
PAGE 4



Department of Education Investigation                                (con’t. from page 3)


They decided that because           cated a false time sheet claim-      The two Bell Atlantic techni-
they were supposedly working        ing that he                          cians and a technician from
together their time sheets          had put in                           another telecommunications
should reflect the same             eight hours                          company were fired as a result
amount of time or it would ap-      of overtime                          of the investigation and sen-
pear suspicious.                    on that Sat-                         tenced to 27 months in prison.
                                    urday.

In addition to adding hundreds                                           The former telephone special-
of un-worked hours to their         The evidence also showed             ist at the Department of Edu-
time sheets, the evidence           that the technicians assisted        cation was sentenced in U.S.
showed that the technicians         the telephone specialist with        District Court to serve 54
also were involved in conspir-      her plan to obtain large             months in prison for her role
ing with a telephone specialist     amounts of electronic goods          as the mastermind of a con-
at the Department of Educa-         for her family members               spiracy which cost the Depart-
tion. At first, the technicians     through the Bell Atlantic con-       ment of Education in excess of
began to perform personal           tract. She ordered the goods         $1,000,000. She was also
services for her. She sent the      on the Bell Atlantic contract        ordered to perform 300 hours
technicians during the work-        and helped deliver these to          of community service upon her
day and on weekends to drive        family members. As a reward          release from prison.
her daughter to doctor's ap-        for the technicians' assistance
pointments, to buy her crab         with her personal errands and
                    cakes from      obtaining the goods, the tele-       The Judge also sentenced her
                    Baltimore,      phone specialist approved            husband, a former Environ-
                    install phone   their false labor charges. The       mental Protection Agency em-
                    jacks at fam-   technicians kept quiet about all     ployee, to serve 27 months in
                    ily members'    of these activities to ensure        prison and to pay a fine of
                    homes, to       that they could continue to          $50,000. Their son was also
                    perform yard    double their normal wages            sentenced for his participation
                    work at fam-    with their vastly overstated         in the scheme and was sen-
                    ily members'    overtime claim.                      tenced to 16 months in prison
homes, and other personal                                                to be followed by the perform-
errands. In exchange for                                                 ance of 300 hours of commu-
these favors, she permitted         As a result of this scheme the       nity service.
the technicians to claim that       Department of Education was
they were working overtime on       charged for over $800,000 of
legitimate Department of Edu-       false overtime charges and
cation work at the time they        over $300,000 worth of illegiti-
were performing these per-          mate goods. All the individu-
sonal errands. When one of          als pled guilty for their roles in
the technicians was away get-       the scheme. Fourteen people
ting married, the telephone         have pled guilty as a result of
specialist allowed him to claim     their participation in this
he was actually at work that        scheme, including nine of spe-
day for the Department of           cialist's family members.
Education. She submitted his
false time sheets for him while
he was away and also fabri-
NUREG/BR-0304 VOLUME 5, NUMBER 1                                                                       PAGE 5



Employee Responsibilities—MD 10.43, “Time & Labor Reporting”

The Federal Government offers            pay period; or any other type        quires a new activity code be
most of its employees alternative        of leave taken in the NRC            added to their time entry pro-
work schedules. Some agencies            Time and Labor System (T&L).         file or if their work schedule
have the four 10-hour days per                                                should change.
week, a compressed work sched-
ule, flexi-time schedule, and/or         Each employee must accu-
credit hours. With the assorted          rately report overtime or com-       Employees need to correct
schedules that are available, it         pensatory time with                            any time entry er-
could be possible to make unin-          prior supervisory ap-                          rors during the cur-
tentional errors on time cards.          proval in the T&L Sys-                         rent pay period and
                                         tem and fill out a                             should also ask ap-
                                         Form 145 “Request                              proval for leave re-
All NRC employees are responsi-          and Authorization for                          quests, overtime
ble for submitting NRC Form 707          Irregular or Occa-                             requests, and credit
(or equivalent), Hours of Work           sional Overtime or                             hour work plans,
Request to identify or update their      Compensatory Time.”                            as prescribed in
work schedules. Most impor-                                                             NRC MDs 10.42,
tantly, each employee is responsi-                                            10.46, and 10.62.
ble for accurately reporting all         Employees should also con-
regular hours worked; any annual         tact the T&L coordinator for
leave or sick leave taken during a       any new assignment that re-


Management Responsibilities MD 10.43, “Time & Labor Reporting”

Approving officials must have knowl-       also ensure that employees          for leave, overtime, premium
edge of the work schedule, work as-        sign the SAR either before fi-      hours, work schedules, credit
signments, and hours of each em-           nal approval or upon the em-        hour plans/work, and so on, and
ployee in their T&L units to ensure        ployee’s return to the office to    ensuring that appropriate docu-
that time and labor is accurately re-      verify the accuracy of reported     mentation is available to support
flected. Supervisors should also en-       hours.                              the SAR before approval.
sure that their employees are accu-
rately reflecting any overtime or com-     Supervisors                              Time card corrections
pensatory time earned or used by re-       should be profi-                         should be certified within 2
viewing Summary Approval Report            cient in the use                         weeks: Prior period adjust-
(SAR) prior to their approval. Super-      and input of T&A                         ments will be identified for
visors should also possess knowl-          in the NRC’s                             correction within 2 weeks
edge of agency time and labor policy       T&L System                               after the close of the last
guidelines.                                enabling them to approve the        pay period.
                                           employees’ time and the distri-
                                           bution of hours to activities as
Managers are responsible for review-       recorded in the T&L system.         For more information consult
ing, signing, and approving the em-                                            MD 10.43.
ployees’ SARs, indicating that the to-
tal time and the distribution of hours     Supervisors must also ensure
to activities are correct. They should     that employees are using the
                                           appropriate forms as required,
Page 6                                       NUREG/BR-0304 VOLUME 5, NUMBER 1




               WE’VE MOVED!
                      USNRC
           Office of the Inspector General
                11555 Rockville Pike
                 Mail Stop O 5E13
               Rockville, MD 20852




          HOTLINE NUMBER
           1-800-233-3497
                 TDD LINE
         1-800-270-2787
